HHS/OIG, Audit -"Review of Potentially Excessive Medicare Payments United Government Services,"(A-01-02-00516)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Potentially Excessive Medicare Payments United Government Services," (A-01-02-00516)
March 10, 2003
Complete
Text of Report is available in PDF format (511 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to identify potentially excessive Medicare payments made to institutional providers for
outpatient services during Calendar Year (CY) 2000.  We initially brought the issue of excessive payments to the attention
of the Centers for Medicare and Medicaid Services (CMS) in our report entitled Review of Potentially Excessive Medicare
Payments for Outpatient Services (A-01-00-00502), dated May 16, 2001.  Our current review is a follow up on the
prior issues we identified.  The UGS is one of four fiscal intermediaries we have selected for the follow up review.  Based
on a computer application, we identified 13 outpatient claims reimbursed by UGS where the number of units or services billed
appeared to be excessive.  Our analysis showed that provider-billing errors on six renal dialysis facility claims
resulted in incorrect payments amounting to $386,577.  We also identified seven outpatient hospital claims submitted
by one provider where the pharmacy charges totaled over $1.3 million.